<html>
<title> - THE IRAN, NORTH KOREA, AND SYRIA NONPROLIFERATION ACT: STATE DEPARTMENT'S NON-COMPLIANCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                    THE IRAN, NORTH KOREA, AND SYRIA
                      NONPROLIFERATION ACT: STATE
                      DEPARTMENT'S NON	COMPLIANCE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2015

                               __________

                           Serial No. 114-42

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE 

95-129 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Thomas Melito, Director, International Affairs and Trade, 
  Government Accountability Office...............................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Thomas Melito: Prepared statement............................     8

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    34

 
                    THE IRAN, NORTH KOREA, AND SYRIA
                      NONPROLIFERATION ACT: STATE
                      DEPARTMENT'S NON-COMPLIANCE

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and my good friend, the ranking 
member of our subcommittee, Ted Deutch of Florida, for 5 
minutes each for our opening statements, we will then recognize 
any other members seeking recognition for 1 minute. We will 
then hear from our witness. And without objection, the witness' 
prepared statements will be made a part of the record, and 
members may have 5 days to insert statements and questions for 
the record, subject to the length limitation in the rules.
    And I would like to say, first of all, I apologize for not 
having a lot of members here. There is a lot of activity going 
on right now, and our GOP Caucus is having a big briefing on 
the pending Supreme Court decision on the subsidies for 
Obamacare. So I apologize, but you have the best right here.
    The Chair now recognizes herself for 5 minutes. As part of 
this subcommittee's continued efforts to perform our oversight 
functions of the State Department and of the Iranian nuclear 
negotiations, we are convening this hearing to take a look at 
State's compliance with the Iran, North Korea, and Syria 
Nonproliferation Act, known by its acronym INKSNA.
    INKSNA, by State's own admission, is an extremely important 
and effective tool to address the threat of the proliferation 
of weapons of mass destruction, WMDs, and ballistic missiles. 
It could be even more effective if we pass an updated version, 
like the INKSNA Modernization Act that I authored in 2011, 
which passed the House overwhelmingly with a vote of 418 to 2.
    This law requires the President, who has delegated the 
authority of INKSNA to the State Department, to provide a 
report to our committee every 6 months identifying individuals 
who are believed to have sent or received certain items or 
technology from Iran, North Korea, or Syria. These individuals 
would then be subject to specific sanctions as detailed in the 
law.
    Well, the GAO (Government Accountability Office) was asked 
by Chairman Royce to examine the implementation of INKSNA by 
the State Department and to review its reporting process and 
identify the impact of that process on the imposition of 
sanctions against the Iranian regime.
    What the GAO found was that the State Department has been 
extremely delayed in providing the requisite reports to 
Congress. Of the 18 legislatively mandated reports that the 
Department was to issue to date, only six have been issued. The 
latest report we received was not only late, it took State 
almost 3 years to prepare the 2011 report that we received in 
December 2014--but this report sat awaiting approval on the 
Deputy Secretary of State's desk for over a year. Can you 
follow that?
    So it took State almost 3 years to prepare the 2011 report. 
We received it in December 2014. But the report sat awaiting 
approval for over a year. State reportedly told the GAO that 
one of the major causes for delay is the vetting process of the 
individual cases. Each cycle, State has unilaterally made the 
decision to package cases together--that is the problem--and 
move them through the process at the same time.
    So what ends up happening is if we have one problematic 
case, well, that case can hold up the process for all of the 
other cases. Instead of pulling that case aside for processing 
in the next cycle, State holds up the entire package until all 
cases have been cleared, thus holding up indefinitely the 
sanctions on all of these individuals, because, remember, it is 
not just about the report, we want to know who is being 
sanctioned.
    So while we are waiting and waiting and waiting, no one is 
getting sanctioned. While we are waiting for an entire group to 
be processed because of one problematic case, we are allowing 
these other individuals to continue to help Iran, to continue 
to help North Korea, to continue to help Syria, and they will 
skirt sanctions and proliferate weapons of mass destruction.
    This is a huge blow to the intent of the sanctions and 
their effectiveness, as well as a huge blow to our national 
security. But let us look at the timeline of the last report 
for a moment. We received the report, as I said, in December 
2014. It sat on the desk for over a year. In November 2013, 
President Obama announced that the P5+1 had reached an 
agreement with Iran, and we were ready to implement the joint 
plan of action while they continued to pursue a final 
agreement.
    If we connect the dots, the administration had actionable 
intelligence and a legal obligation--let us not forget that--to 
sign off on the report and sanction these individuals. But the 
administration sat on this. They did not file the report, and 
the administration did not sanction these individuals.
    This flies in the face of all of the times that the 
President and the folks that we know have said that the U.S. 
will continue to fully enforce all of the sanctions on Iran 
while the negotiations were ongoing. That is what the 
administration says. What they are doing is quite different. 
Each and every one of these times they knew that this was less 
than truthful.
    The reporting requirements of the law is clear. State is 
required to submit INKSNA reports to Congress every 6 months, 
yet the State Department took it upon itself to ignore this 
requirement. The requirement is not a suggestion; it is the 
law.
    And as the Iran nuclear negotiations continue we are also 
left to wonder, what other sanctions is the administration not 
enforcing that it should or that it must? We already had the 
recent report from the U.N. panel of experts that said that the 
U.S. and other nations were not reporting Iran's sanctions 
violations to the Sanctions Committee.
    Ambassador Power was here in this very room yesterday and I 
asked her about that, and she, too, stated the administration 
has been above water and has been fully enforcing all of the 
sanctions. But when it comes to the nuclear negotiations and 
Iran, I am more inclined to believe that the administration is 
purposely misleading Congress and is in fact not following the 
intent and letter of the law.
    This GAO report should be just the tip of the iceberg, and 
I commend Director Melito and his team for their hard work in 
putting together this report.
    Thank you.
    And now I yield to the ranking member of the subcommittee, 
my good friend Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman, for holding today's 
hearings. I want to thank the chairman for her continued 
legislative efforts to strengthen the Iran, North Korea, and 
Syria Nonproliferation Act. You have been tireless in your 
efforts to keep focus on the nexus between these three regimes 
and their quest for weapons of mass destruction.
    As we heard in our hearing on Iran's ballistic missile 
capabilities last week, the relationship between Iran and North 
Korea with respect to illicit procurement is vital to the 
Iranian regime's efforts to circumvent international sanctions. 
We know that the Iranian regime has been unabated in its 
support for Assad over the past 4 years, and the potential 
transfer of sensitive technologies or weapons to this murderous 
regime that has shown it is more willing to use and continue to 
use, despite its obligations under the Organization for 
Prohibition of Chemical Weapons Agreement, chemical weapons 
that it is willing to use against its own people.
    INKSNA was enacted and subsequently amended to shut down 
illicit procurement and transfers. And, first, let me say that 
I appreciate the GAO's work on this work, and I appreciate the 
State Department's willingness to make comments on GAO's 
findings and accept the GAO recommendation. We know that 
building and enforcing a sanctions regime is complex, and I 
commend the work that State has done to enact punishing 
sanctions on bad actors over the years.
    The ongoing nuclear negotiations with Iran is a prime 
example of the effect sanctions can have, although I would 
respectfully note that the purpose of sanctions is to change 
behavior, not simply to come to a negotiation.
    However, it is clear from GAO's investigation that there 
has been a failure to comply with the particular 6-month 
reporting requirement in INKSNA. And while I respect and 
appreciate the time that it takes to adequately verify 
sensitive intelligence and to work through the interagency 
process, I am concerned that State Department's decision to 
issue annual reports instead of every 6 months is causing a lag 
time in the imposition of sanctions.
    Again, I know that it often takes quite a bit of time to 
meet the requirements for a sanctions determination, but I 
agree with the GAO that finding that one outstanding 
determination should not delay an entire report. Isn't there a 
process in which State can issue its 6-month reports to 
Congress while denoting an unfinished investigation?
    Further, I would like to understanding more as to why GAO 
found that the longest delay in the issuance of a report seems 
to be at the Deputy Secretary level. How does this reporting 
requirement differ from those in other sanctions legislation, 
and are those requirements being met?
    Finally, and perhaps most concerning, is that the INKSNA 
process seems to differ from other sanctions determinations in 
which sanctions are not levied until a report is issued to 
Congress. I would be interested to hear if, in your interviews 
with the State Department, any discussions took place with 
respect to potential legislative changes to the underlying law.
    In cases where sanctions have been imposed, the majority of 
the sanctioned persons have been located in China, Sudan, Iran, 
and Syria. Strikingly, 17 of the 82 sanction entities have had 
sanctions imposed on them more than once. Understanding that 
INKSNA sanctions need to be renewed every 2 years, I would be 
interested to hear more from State as to why there are repeat 
offenders. Is the lag time between the issuance of reports, 
which then can trigger a sanctions designation, allowing these 
actors to continue to engage in sanctionable activity?
    Now, Mr. Melito, I appreciate you being here today to 
explain GAO's findings, and it is my hope that we can work to 
implement whatever changes in process are necessary to ensure 
that we are acting as quickly as possible to impose sanctions 
on those who aid and abet the world's most dangerous actors.
    And with that, Madam Chairman, I will yield back the 
balance of my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, for that 
excellent statement.
    Mr. Trott, you are recognized.
    Mr. Trott. Thank you. I want to thank the chairwoman and 
ranking member for calling this hearing to focus on the 
administration's failure to comply with the reporting 
requirements of the Iran, North Korea, and Syria 
Nonproliferation Act.
    INKSNA is supposed to provide the United States Government 
with an important and flexible tool to achieve its 
nonproliferation objectives and a method by which to impose 
sanctions to accomplish this important goal. Unfortunately, due 
largely to political concerns with Iran, the administration has 
failed to comply with INKSNA, which has only heightened 
concerns in Congress with the ongoing nuclear negotiations.
    Continued reluctance to enforce these sanctions 
significantly compromises our credibility and nullifies 
INKSNA's effectiveness as a tool in helping to curtail the 
proliferation of weapons of mass destruction.
    I urge the administration to comply with INKSNA, as failure 
in this regard will mostly certainly result in the 
proliferation of weapons of mass destruction. Not only does 
non-compliance with this act put the United States at risk, but 
it also threatens our friend, Israel.
    I look forward to examining the reporting history with 
respect to INKSNA and trying to better understand why the 
delays--why there have been delays in the reporting and what 
impact the delays have had on the proliferation of weapons of 
mass destruction.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. Clawson of Florida is recognized.
    Mr. Clawson. Yield back.
    Ms. Ros-Lehtinen. Thank you.
    And now we are pleased to recognize our witness. We are so 
pleased to welcome Dr. Thomas Melito, Director of the 
International Affairs and Trade team at the Government 
Accountability Office. He is responsible for the GAO's work on 
international sanctions and nonproliferation, and has recently 
completed a review of the implementation of the U.S. and U.N. 
sanctions on North Korea.
    Thank you, Dr. Melito, for being with us here this 
afternoon, and for the work of all of the folks on your team 
that helped put this very important document together. And, 
with that, your written statement will be made a part of the 
record. Please feel free to summarize and present your 
findings.

STATEMENT OF MR. THOMAS MELITO, DIRECTOR, INTERNATIONAL AFFAIRS 
          AND TRADE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Melito. Thank you. Madam Chairman, Ranking Member 
Deutch, and members of the subcommittee, I am pleased to be 
here to discuss GAO's work regarding State's implementation of 
the Iran, North Korea, and Syria Nonproliferation Act of 2006, 
which is referred to as INKSNA.
    INKSNA targets the transfer of prohibited items related to 
weapons of mass destruction. INKSNA requires that State provide 
Congress with a report every 6 months, and State cannot impose 
sanctions until it has done so. My testimony is based on a 
report which is publicly released today.
    I will focus on four topics. First, State's timeliness in 
providing Congress with INKSNA reports; second, State's process 
for preparing these reports; third, the potential impact of 
State's reporting timeliness on the imposition of sanctions; 
and, fourth, GAO's recommendation and State's response.
    Regarding the first topic, State has not provided reports 
to congressional committees in accordance with INKSNA's 6-month 
reporting requirements. Since 2006, it has provided only six 
reports covering 2006 through 2011, instead of the 18 reports 
that INKSNA required. State provided these reports at irregular 
intervals averaging 16 months. It provided its most recent 
report in December 2014, 22 months after its prior report.
    Regarding the second topic, State's process does not allow 
it to comply with INKSNA's 6-month reporting cycle. The process 
is complex and lengthy, involving multiple interagency and 
internal reviews regarding each group of reportable transfers 
that first came to its attention in a single calendar year. It 
then determines whether to impose sanctions on foreign persons 
associated with those transfers.
    Under this process, State does not provide a report to the 
committee until it has resolved concerns it may have regarding 
any of the transfers in a particular annual group. As a result, 
a single problematic case can delay State's provision of a 
report which may include other transfers that State may be 
otherwise ready to report.
    Moreover, State's process requires officials to begin 
preparing a new report every December, regardless of whether 
they have completed and provided all previous reports. As a 
result, they must manage the preparation of a backlog of 
multiple draft reports, each addressing a different year.
    For example, State data indicate that in the last 6 months 
of 2014 State officials were simultaneously managing the 
preparation of three draft reports covering calendar years 
2011, 2012, and 2013. State's delays in reporting on transfers 
have also recently increased, growing from 26 months for the 
2010 report to 36 months for the 2011 report.
    Regarding the third topic, State's process limits its 
ability to minimize the time required to impose INKSNA 
sanctions. INKSNA requires State to identify foreign persons in 
a report before it can impose sanctions on them. Under INKSNA, 
State is expected to decide on sanctions between 6 and 12 
months after it first obtains credible information of a foreign 
person's involvement in a reportable transfer.
    However, under State's process, the actual interval between 
the transfer and the opportunity to impose a sanction has been 
considerably longer. For example, State did not impose 
sanctions on 23 foreign persons for transfers it first learned 
of in calendar year 2011 until December 2014, between 36 and 48 
months after the fact.
    Regarding our fourth topic, GAO recommended that State 
should reconsider its INKSNA reporting process to ensure that 
it, one, complies with INKSNA's 6-month reporting cycle; and, 
two minimizes delays in its ability to impose sanctions.
    State officials concurred with our recommendation. However, 
in commenting on our findings, they raised some concerns. State 
officials commented that our report does not take into account 
the inherent difficulties of meeting what they characterize as 
the law's tight deadlines and a substantial increase in scope 
of reportable activity.
    In response, we note that INKSNA's scope has not changed 
since 2006, and that the time required by State to provide the 
reports to the committee has increased since 2006.
    State officials also commented that our report does not 
place sufficient priority on the need for careful preparation 
and thorough vetting. We recognize that State must thoroughly 
vet each INKSNA transfer, and that some transfers may require 
several years to investigate. However, our report demonstrates 
that State should consider a more efficient process for meeting 
INKSNA's deadlines.
    Under its current process, State's practice of reporting 
transfers in annual groups could allow a single, problematic 
transfer to delay the reporting of other transfers that State 
may have already investigated.
    Madam Chairman, Ranking Member Deutch, and members of the 
subcommittee, this completes my prepared statement. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Melito follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, and thank you, again 
to your whole team for the great and difficult work that you do 
all the time.
    Mr. Melito. Thank you.
    Ms. Ros-Lehtinen. The findings in this report are very 
troubling, not only from an oversight perspective for us as 
Members of Congress but for anyone who believes that the laws 
of the land are indeed meant to be followed, and that no one is 
above these laws.
    And they are also disturbing because of what they tell us 
about the length that the administration will go to to appease 
the Iranian regime in its misguided and dangerous quest to 
reach a nuclear deal with Iran and forge some sort of legacy 
for President Obama. Those are my words, not yours. I realize 
that.
    But in your report you mention that State officials said 
political concerns, including international negotiations and 
foreign relations, can delay the reporting process. Did the 
negotiations between Iran and the P5+1 factor in the decision 
to delay the latest report? What were you told?
    Mr. Melito. We can't actually comment in a public setting 
on that. We are able to talk about the process in a public 
setting. But when you get into discussions of countries in 
individual cases, it actually goes to a very high level of 
classification very quickly.
    Ms. Ros-Lehtinen. Thank you. No worries. The GAO found that 
State actually ignores the 6-month requirement and focuses on 
yearly reports, as I said and you verified. Does State decide 
on its own to submit yearly sanctions reports rather than 
adhering to the legally required 6-month schedule? Do they do 
that on their own?
    Mr. Melito. State has created a process that envisions 
annual reports. And when we asked them why, they thought that 
was the most efficient way to do it. So it does not envision 
two reports a year; it only envisions one report a year.
    Ms. Ros-Lehtinen. Did anyone at State acknowledge that they 
are violating the law with this practice, that until it is 
changed that is the requirement?
    Mr. Melito. We asked that question several times, and I 
don't think we ever got a clearly definitive answer on that.
    Ms. Ros-Lehtinen. In response to your report, State assumed 
that the committees were okay with the reporting process. 
However, it is extremely odd since in the year 2011 I authored, 
and the House passed, the INKSNA Reform and Modernization Act 
and State's failure to meet the requirements of this law, 
particularly with respect to the reporting cycle, was a part of 
that effort and has been raised with the Department in multiple 
instances.
    Which specific offices within the State Department did you 
have access to? Did you ever engage or have sufficient access 
to the Deputy Secretary's office or those in the State 
Department who dealt with Iran sanctions generally, such as the 
Deputy Coordinator for Sanctions?
    And, related to that, which offices did you request 
meetings with? And which offices failed to either get back to 
you or turn down your request for a meeting?
    Mr. Melito. So we had what I would characterize as highly 
functional access to the working level, which was the ISN, the 
International Security and Nonproliferation Bureau, which is 
the bureau responsible for preparing the annual reports.
    We did realize, given the nature of what we were finding, 
that there was a need to engage higher level officials. And we 
did request a meeting with the Deputy's office, as well as the 
coordinator's office, and we were not granted that meeting.
    Ms. Ros-Lehtinen. And, finally, the GAO provided State with 
the opportunity to comment on the report and submit those 
comments for the record. Department officials, according to 
your report and the comments, repeatedly cite the difficulties 
of meeting the tight deadline, and even went through the 
trouble of boldfacing and underlining the fact that they need 
time to identify every foreign person in each group.
    The GAO also noted that this practice of reporting 
individuals in entire groups could allow a single problematic 
case, as we talked about, to delay the reporting of an entire 
group. Why wouldn't State simply remove the problematic cases 
allowing the other ones to be processed through, and did you 
suggest this as a workaround for the State Department? And, if 
so, what was their response?
    Mr. Melito. We went through our understanding of how it was 
working with them on multiple occasions. And at what is called 
the exit conference where we go through our findings, we went 
through exactly that scenario, where we were seeing single 
cases holding up the process. And we explored with them their 
opportunity to maybe revisit the process and change it, and 
they were quite resistant.
    They have had this process for probably 10 years, and they 
seem to think it works and it is very efficient. But I think 
the ``why'' is probably better asked of State Department.
    Ms. Ros-Lehtinen. Thank you very much, Director Melito.
    I now recognize Mr. Deutch, the ranking member.
    Mr. Deutch. Thank you, Madam Chairman. And, Madam Chairman, 
I apologize, but after my line of questioning I have another 
committee meeting that I have to run off to.
    Mr. Melito, in the course of your discussions with State 
Department, did they indicate that meeting the 6-month 
reporting requirement is too difficult and that they needed 
changes made to the law?
    Mr. Melito. They recognize they have a backlog. They 
recognize they need to clear that backlog. They also say that 
once they clear the backlog that they are going to go back to a 
6-month reporting cycle. I don't know exactly what changes they 
have in mind.
    So we did ask them whether they thought that 6 months was 
not reasonable, would you want to explore changing the law, and 
they said, actually, they wanted to leave the law as it was, 
because they thought it was working as intended.
    Mr. Deutch. Well, what did they think the impact on the law 
was of the 36- to 48-month delay that you referenced?
    Mr. Melito. Well, we bring up that the threat of a sanction 
may loosen credibility when there is such a long time between 
the actual observation of a problematic transfer and the actual 
sanction decision.
    They disagreed, and they thought that the--what is going on 
during this period of time, there is a lot of behind-the-scenes 
discussions with other governments and trying to forestall 
other transfers. And I am confident that that is actually 
happening, but the actual ultimate result, if you can't 
succeed, is a sanction. The credibility of the sanction does 
require some timeliness.
    Mr. Deutch. And did State give your team any justification 
as to why they choose to look at potential violations only on 
an annual basis?
    Mr. Melito. So one tangible thing they have is they have to 
look at lists of technologies that are possibly not--are 
controlled. They have international lists, and they have their 
own internal list.
    If they decide in 2010 to add a new item, it can't be 
retroactive to 2010. It can only move forward. So they are 
saying that by keeping cohorts together they won't create any 
confusion on that. But that does seem like something that could 
be managed.
    Mr. Deutch. Because you suggested in your testimony that 
there is a more efficient way to do it.
    Mr. Melito. The most efficient way is to release the cases 
as they are finished. We agree that some cases are very 
difficult and should take as long as they are taking. But they 
acknowledge that when the report comes out some cases have been 
finished for a long time.
    Mr. Deutch. All right. So what is the response as to why 
they shouldn't be reported as they are finished?
    Mr. Melito. If they gave you the answer they gave us, if it 
is not satisfying it is because it wasn't satisfied.
    Mr. Deutch. Okay. Did State indicate that the process that 
it uses to investigate and make determinations for these 
sanctions differs in any way from the process they use for 
other sanctions regimes?
    Mr. Melito. So the biggest difference is that the 
requirement to sanction has to first follow a report to 
Congress. We have looked at quite a number of Iran and North 
Korea and other sanction regimes, and there is a very similar 
deliberative process, both within State and across multiple 
agencies. Some of the same working groups are involved in other 
sanction regimes.
    All of those, though, culminate with an internal decision 
by either State or Treasury to sanction. INKSNA seems unique, 
from my perspective, in that it first requires a report to 
Congress.
    Mr. Deutch. So, in all, just to refer back to my friend's 
comment earlier, in all of the other Iranian sanctions 
programs, they reach a determination saying if they make a 
designation sanctions are applied. It doesn't appear that the 
goal, then, is to appease the Iranian regime.
    Mr. Melito. I really couldn't comment on that one way or 
the other.
    Mr. Deutch. Okay. Did the Department acknowledge that it 
could issue reports that acknowledge in some way that at least 
that there were investigations that were still pending?
    Mr. Melito. We know that they currently, at the end of 
2014, were simultaneously preparing the results of 2012, 2013, 
and we now--I am sure they are beginning to think about a 2014 
report. So there are--we know they are doing what they need to 
do. They are monitoring activity, and they are preparing case 
files, and they are discussing this internally in the State 
Department and across. It is reaching the final decision. That 
seems to be what is taking so long.
    Mr. Deutch. And just getting back to the first question I 
asked, so they believe that once the backlog is cleared up--the 
law doesn't need to change, because once the backlog is cleared 
up, then they can get back to the requirements, meeting the 
requirements that are set forth. Did they tell you when they 
anticipate that happening?
    Mr. Melito. They did not.
    Mr. Deutch. Okay. Thanks, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you. Excellent questions. Thank 
you, Mr. Deutch.
    Mr. Trott is recognized.
    Mr. Trott. Thank you, Madam Chairwoman.
    You said a minute ago, sir, that reaching a final decision 
seems to be the problem. Can you explain why reaching a final 
decision is so difficult?
    Mr. Melito. I can only tell you in a general sense and what 
is publicly available. They have to--first, the intelligence 
community has to determine whether it is publicly possible to 
report the information, the names of individuals, and they also 
want to go through the deliberative process of working with 
other governments, and making sure that they have got a 
sufficient case file.
    So when you are dealing with, you know, overseas entities 
and trying to make sure you have the right person and you have 
enough evidence, this can take some time.
    Mr. Trott. So is there any evidence, or do you have any 
sense that the administration's general indifference and 
insouciance toward taking action on the world stage is a 
contributing factor?
    Mr. Melito. I cannot comment on that.
    Mr. Trott. Okay. Is there anything in INKSNA that requires 
that the State Department review and vet individuals as a 
group? Could they do it individually?
    Mr. Melito. The law does not state how that should be done. 
It just says it has to be done every 6 months.
    Mr. Trott. Has anyone suggested maybe that, since they are 
so backlogged that they develop a different process, or are 
weapons of mass destruction not a big deal?
    Mr. Melito. I think if they were to implement GAO's 
recommendation, they would create a new process.
    Mr. Trott. Okay. So the State Department officials told you 
that they believe that the threat of imposing sanctions can be 
as effective as the imposition of sanctions in achieving the 
behavioral changes that sanctions are intended to motivate. Do 
they provide any information or analysis to support the idea 
that the threat of sanctions against these three countries 
could be as effective as actual sanctions?
    Mr. Melito. To get into specifics on that assertion on 
their part would actually not be possible at a public hearing.
    Mr. Trott. I apologize. Not be possible because of?
    Mr. Melito. In a public hearing.
    Mr. Trott. I see. Okay. So basically they are treating 
these three countries like we treat England, France, and 
Australia. Would that be a fair summary?
    Mr. Melito. I----
    Mr. Trott. Okay. I apologize. I will move on.
    Actually, that is the extent of my questions. I yield back. 
Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Yes. Thank you, Madam Chair. I just wanted to 
focus on the North Korean agreement that was signed back in 
1994. And, you know, it seems as though that agreement was 
fundamentally flawed in the first instance, because of its 
brevity, because of the lack of inspections, and just a lack of 
detail in terms of both infrastructure and nuclear material.
    What was the stated objective in 2004 in signing that 
agreement with North Korea?
    Mr. Melito. That is outside the scope of what GAO did. I 
can talk to you a little bit about how State is implementing 
sanctions on North Korea, but actually what the State 
Department was thinking when it signed that agreement I could 
only--I can only speculate on that.
    Mr. Higgins. Well, was it to keep North Korea from 
obtaining nuclear weapons?
    Mr. Melito. I am--that seems like a reasonable expectation.
    Mr. Higgins. And how many nuclear weapons does North Korea 
have today?
    Mr. Melito. I know they have more than one.
    Mr. Higgins. And they have a pretty considerable atomic 
program? What inspections are in place relative to the North 
Korean nuclear program?
    Mr. Melito. We reported last month that the U.S. 
Government's imposition of sanctions on North Korea had been 
hampered by the need to identify specifically North Korean 
individuals. And given their closed regime--and we don't have 
good access--following the Sony hack late in 2014, the 
President signed a new Executive Order which changed the way 
sanctions against North Korea are implemented.
    Mr. Higgins. Right.
    Mr. Melito. Now, if we are confident that an individual is 
either a member of the Worker's Party or a member of the 
Government of North Korea, we can sanction. They don't 
necessarily want to do that just because of those things, but 
it allows them to have a lower level of evidence before they 
can actually implement a sanction. So they think that is going 
to actually help in the months ahead.
    Mr. Higgins. And how is that going?
    Mr. Melito. Well, it just got implemented.
    Mr. Higgins. I see. Well, you know, it seems like--I mean, 
there are some fundamental differences here between North Korea 
and Iran. I mean, you know, the domestic policies of Iran, or 
politics of Iran, are that a vast majority of that population 
is very young and wants to normalize relations with the rest of 
the world. And that is, you know, fundamental I think to 
America's leverage in negotiating a deal with Iran, where North 
Korea, it is almost--they kind of pride theirselves on being 
isolated from everybody.
    It just seems to me that, you know, there is a pride in 
North Korea boasting that its atomic arsenal is enshrined in 
its constitution. And so it just seems like, you know, this is 
a weak agreement to begin with, and more cosmetic than it is 
substantial, which I suppose the good thing is maybe it has 
influenced or informed the negotiations with Iran, that this 
has to be a lot more serious than the one with North Korea, 
because it is almost like we don't have an agreement with North 
Korea.
    Mr. Melito. There is nothing equivalent to the TPOA with 
North Korea. That is correct.
    Mr. Higgins. Yes, yes. Okay.
    All right. I will yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Higgins.
    Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair.
    Mr. Melito, I am trying to go back to some basics and 
understand this a little. President Clinton signed a law 
requiring this report. President Bush twice signed laws 
requiring this report. Before we get to President Obama, either 
one of those Presidents make progress on delivering reports in 
a timely fashion from your looking at history?
    Mr. Melito. We identified some delays in the past, but we 
focus on INKSNA, so we really focus heavily from 2006 forward.
    Mr. Issa. Okay. So previous Presidents were not perfect. We 
are not going to give either one a pass. But since 2009 when 
President Obama came in, you have seen this problem of 
essentially almost non-compliance, going through the motions, 
but 3 years seems like not even a close to a semi-annual 
report. Is that right?
    Mr. Melito. That is correct.
    Mr. Issa. And their statement to you is, ``We are going to 
do better.'' That is kind of like the guy that owes you money 
saying he will pay you when his brother straightens out, but 
then you find out his brother is a hunchback. Okay. You know, 
he will not straighten out.
    This does--I know that is so insensitive. The fact is, this 
is a problem that is not going to straighten out in the last 18 
months of this administration. Isn't that true?
    Mr. Melito. I think----
    Mr. Issa. I know you believe in the redemption of souls, I 
am sure, but excluding that kind of an event, do you see it 
happening?
    Mr. Melito. We have given State a possible new process, 
demonstrated that there is a process that could make this go 
quicker. And State has sort of acknowledged that they need to 
do something, so I guess my perspective, I just need to see 
what happens now.
    Mr. Issa. Okay. So we are back to hope. Okay. Excluding 
hope for a moment, you earlier said that you were given access, 
sort of very broad but not very high, that you--up to a point 
you were given good access, and then after that some of the 
details, that higher level that would have helped you 
understand the problem and maybe suggest more, you were denied. 
Is that correct?
    Mr. Melito. Well, from our perspective, we got the access 
we needed to complete the work, so that is important to note. 
And the focus was on the process. So we spoke with all of the 
key parts of State that was dealing with the actual creating of 
the report.
    When we recognized, though, that this process and how it is 
run is probably above the people who are doing it, and the 
decisions on changing it are not up to them, we thought it 
would be a good idea to actually seek out some views of the 
higher level officials. And we did request those meetings, but 
we didn't get them.
    Mr. Issa. So one thing that Congress could do in 
appropriation or other appropriate areas is insist that you 
have that access so that perhaps beyond hope you could also 
have participation. Is that correct? You are not lobbying; we 
are asking.
    Mr. Melito. From our perspective, we got the access we 
needed, because I thought it was actually in State--it would 
have been to their advantage to have had a meeting. If it 
actually--if I needed that meeting to complete the work, then I 
probably would have gone through a more legalistic process. But 
I did not need that meeting to finish my work, but I thought it 
would have been helpful if State had had that conversation.
    Mr. Issa. Let me just close--and I know, Madam Chair, this 
has been said many, many times. But since I alluded to, you 
know, we are not going to get where we want to be in the next 
18 months, you, at GAO, are great at giving corrective action 
and then advising Congress in your role in our branch on what 
to do in the future.
    If you could take the remaining time, to the extent that 
you can, and tell us, how could we better write and oversee 
requirements like this so that we could get and expect 
compliance? Is it that we need to pre-negotiate? It sounds like 
they have said 6 months was enough; they are just behind. What 
is it we could do different? Because I know the chair would 
like to do better next time, so that we wouldn't be at fault 
for these reports.
    Mr. Melito. I think the law is quite clear, so I don't know 
if the law needs to be clearer. So I----
    Mr. Issa. So you are just saying that you need people who 
will obey the law?
    Mr. Melito. I think there probably would have needed to 
have been a dialogue between the Congress and State earlier. I 
mean, these laws--these reports have been delayed for a long 
time now. So it is possible that they didn't think that they 
needed to meet the law. I don't know. It is a question they 
have never really answered, but I think Congress' concerns were 
not necessarily being received.
    Mr. Issa. Well, you know, the interesting thing is State, 
in another committee, told us that the reason that Ambassador 
Stevens didn't get more security is he didn't ask enough. He 
didn't insist enough. That after asking for and saying things, 
including on the day he died, that it wasn't a question of if, 
but when, there would be an attack, he didn't ask enough. I 
appreciate it, Director, and we will try to figure out how to 
ask more.
    I thank the gentlelady and yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Issa.
    Mr. Clawson of Florida.
    Mr. Clawson. So thank you for coming today. Appreciate it. 
The process slows almost to a halt. It takes a long time to get 
the final decision. Then, it takes even longer to get a final 
decision.
    In the meantime, that creates space, time for the State 
Department to renegotiate deals they don't like anymore, slow 
down on details, redo--you know, use the threat of the sanction 
that is out there that we haven't really applied yet because 
our process is so low--or so slow.
    So you kind of have this--you know, and then we blame it on 
bureaucracy. But if it really is bureaucracy, it kind of helps 
the State Department and the administration around the intent 
of the original process, so that they can retrade the deal and 
do what they really want to do with these folks.
    And so it doesn't sound like a bureaucracy problem at all. 
It sounds like somebody playing on the margins of the law in 
order to create space, to retrade a deal they don't like 
anymore, or never did like, and then we are in a position where 
we have no recourse, unless we want to change the law, which is 
hard to do because there is a Democrat in the White House that 
likes retrading these deals.
    Did I summarize that correct?
    Mr. Melito. I think GAO provided you the ``what.'' You are 
asking me for the ``why,'' and I can't really give you the 
``why.'' But your narrative is as reasonable as any others I 
have heard.
    Mr. Clawson. But I am saying that the focus on procedural 
delays, when those procedural delays coincidentally help the 
State Department retrade the deal, I mean, we are--we have got 
a mishmash of incentives here that we are not being--you know, 
the American people deserve clarity. If I am going to sit up on 
this committee, I am going to speak clear about what is really 
going on as opposed to yakking around the edges about 
bureaucracy and steps in the process.
    Mr. Melito. And I understand perfectly. GAO, though, can 
only really talk about what we can observe, and you are asking 
about things we could not observe.
    Mr. Clawson. I have nothing, then, I can add to that. You 
know, we need to figure out, you know, how to use the power of 
the purse or the power of change in the law, so that what we 
do, you know, the process actually reflects reality on what the 
original intent was.
    Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Clawson.
    Dr. Yoho, also of Florida.
    Mr. Yoho. Thank you, Madam Chair. Appreciate you being 
here, sir. In their response to the GAO's studies, they stated 
that ``Further challenging the ability of the Department to 
deliver INKSNA reports within the statutory timeframe, the law 
has subsequently expanded its scope along its evolution.''
    The last time the law was amended was in 2006, adding North 
Korea. What was State's response to the fact that despite no 
changes in the scope of the law since '06, the time that State 
requires to produce a report for Congress has increased? I 
mean, what was their reasoning?
    Mr. Melito. State mentioned that they thought because of 
scope changes that that was contributing to it. But we don't 
think the scope has changed.
    Mr. Yoho. Well, they have had since 2006 to get their act 
in order.
    Mr. Melito. And that is the period of time we are looking 
at, and we also observed that the time between reports is 
getting longer, not shorter.
    Mr. Yoho. Right. And you have offered, you know, the 
suggestion of, do we need to expand it to a year, but yet they 
said no.
    Mr. Melito. They did not think the law needed to be 
changed.
    Mr. Yoho. All right. What do you believe would be the most 
efficient method for eliminating the current backlog, and also 
keeping up with the future deadlines?
    Mr. Melito. I think State could implement a 6-month 
reporting cycle. They could.
    Mr. Yoho. Is it a shortage of help? Funds?
    Mr. Melito. They did not say they needed resources, but I 
think if State--State may want to actually have a conversation 
with Congress about that, because they--it was at the bureau 
level. I think that should really be at the deputy level to 
really decide that.
    Mr. Yoho. Who is the person at State, the individual, that 
is responsible for that study?
    Mr. Melito. It is an individual in the International 
Security and Nonproliferation Bureau. I would rather not name 
the name, because----
    Mr. Yoho. You don't have to, but there is one person that 
is held accountable for this.
    Mr. Melito. There is one person, although ultimately it is 
the Deputy Secretary, because ultimately the Deputy Secretary 
is the deciding official.
    Mr. Yoho. All right. So somebody can be held accountable.
    Mr. Melito. Yes.
    Mr. Yoho. And somebody, if they are held accountable and 
they are not performing their job, in the private sector would 
be removed from that job. That could happen here, correct?
    Mr. Melito. I assume so.
    Mr. Yoho. I would hope so.
    And I think that is something, Madam Chair, for another 
meeting would be wonderful.
    Let me ask you this. What is the impact of--what impact has 
State's delay in reporting had on sanction decisions?
    Mr. Melito. The way the INKSNA law is written, you can't 
make an INKSNA sanction decision until you first report to 
Congress. So in December 2014, we get the--we got the decision 
on 23 cases that were observed in 2011. So between the time the 
State Department became aware of a problematic transfer and 
actually sanctioning was between 36 and 48 months later.
    Mr. Yoho. And with the critical negotiations where they are 
at with Iran right now, a period of time delay like that is 
unacceptable. I mean, it is--you are reporting on something 
that happened 24 to 30 months ago on today's decisions. And I 
just--would you feel that would weaken our hand at the 
negotiating table?
    Mr. Melito. We observe, separate from any of the 
negotiations. We are concerned about the credibility of the 
sanctioning process.
    Mr. Yoho. I was going to get into that here.
    Mr. Melito. To my mind, the sanctioning process requires 
relatively timely action.
    Mr. Yoho. Yes. I mean, you want it timely. It is like 
disciplining a child when they are wrong. You don't want to 
wait until they are 18.
    According to your report, State Department officials told 
GAO that they believe that the threat of imposing sanctions can 
be effective with what you just brought up as imposing 
sanctions in achieving the behavior changes sanctions are 
intended to motivate. However, did they quantify this claim? 
And if they believe that, they would be reporting quicker, 
wouldn't you think so?
    Mr. Melito. As to the first part, I think they may have a 
couple of examples, but any example cannot be done publicly. So 
I would think that you would benefit from a briefing from them 
in a classified setting, where they would give you some of 
those examples.
    Mr. Yoho. I have got an example here. Seventeen of the 18 
foreign persons that have had sanctions imposed on them have 
actually had the INKSNA sanctions imposed on them for more 
than--actually, more than once. That is correct, isn't it?
    Mr. Melito. Yes.
    Mr. Yoho. In your opinion, would that undermine State's 
suggestion that the mere threat of a sanction is just as 
effective as the imposition?
    Mr. Melito. That is a very fair question.
    Mr. Yoho. And, again, you know, you can only threaten so 
long before you act.
    Mr. Melito. Yes.
    Mr. Yoho. Let us see. What is the effect of the 
administration's failure to implement these nonproliferation 
sanctions, particularly against Iran? And I think I kind of 
covered that and you kind of answered that. But in this----
    Mr. Melito. I cannot talk about individual countries.
    Mr. Yoho. Okay. I understand.
    Mr. Melito. Yes. So----
    Mr. Yoho. Thank you, sir, for your time. And I yield back.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Weber of Texas.
    Mr. Weber. Thank you. Director Melito, forgive me if some 
of this is redundant, because I came late so I didn't hear your 
remarks. I am looking at your testimony here. According to your 
testimony, you talk about from 2006 to May 2015 that State 
imposed sanctions on 82 foreign persons located in 10 nations, 
including China, Iran, Syria, North Korea, Sudan, and Russia.
    Once imposed, INKSNA sanctions are in effect for 2 years at 
State's discretion. Okay. So there was 82 foreign people in 
those 9 years that you have identified.
    Mr. Melito. Yes.
    Mr. Weber. So you go in and you look at the process. Is 
that number, that percentage of people who are identified and 
sanctioned, is it rising? Is it raising or lowering?
    Mr. Melito. It goes up and down, but their most recent 
report covering 2011 has the most in any of the years, which is 
from 2006 to 2011. And 23 was the single largest year.
    Mr. Weber. So that was the largest year. So that kind of 
answers the doctor's question about, does the statement--even 
the threat of sanctions seems to work. If you looked at the 
numbers, that would kind of be antithetical, wouldn't it?
    Mr. Melito. It seems the activity may be increasing, but I 
actually don't know that, and that would actually be----
    Mr. Weber. Well, you don't think they just chose those 
people out of a hat.
    Mr. Melito. We don't know----
    Mr. Weber. I mean, the activity is obviously increasing.
    Mr. Melito. Part of this is actually becoming aware of 
activity. So some of it may have occurred before 2011. But, 
again, any of this kind of conversation requires information 
that cannot be discussed publicly.
    Mr. Weber. So how far--did you go back to 2006?
    Mr. Melito. Yes.
    Mr. Weber. Okay. So did you identify, in 2006, what the 
first report due--where the problem was? Where did--who was 
responsible? Where did the buck stop?
    Mr. Melito. We have a table in the statement for the 
hearing, not for the report, which gives you how long, in 
months, each of the six steps take, and we----
    Ms. Ros-Lehtinen. Okay.
    Mr. Melito [continuing]. Our general summary is the steps 
that are inside State's control take the longest. And in the 
most recent report, the actual final approval by the Deputy 
Secretary took the longest.
    Mr. Weber. But identifying 2006, that first person, that 
first step, that never got the ball rolling. I mean, you can do 
it by a position; you don't have to do it by person's name. Can 
you do that by position?
    Mr. Melito. So for the--so the report that covers 2007, 
because we----
    Mr. Weber. Let me restate it this way. Does State have a 
process whereby they start to put this report together? Have 
they built that outline?
    Mr. Melito. I guess, and we did review the statements of--
--
    Mr. Weber. All right. Now we are getting somewhere. In that 
outline, what is the first office it goes to?
    Mr. Melito. We have a flowchart in the report.
    Mr. Weber. Okay.
    Mr. Melito. In the actual report itself, on page 9, which 
goes through the 12 steps.
    Mr. Weber. Okay.
    Mr. Melito. It starts--so there are these expert groups----
    Mr. Weber. I don't want to turn to page 9.
    Mr. Melito. But I am going to just say one thing quickly. 
Their expert groups, which are responsible for missile 
proliferation, biological/chemical/nuclear, they are meeting 
every 2 to 4 weeks.
    Mr. Weber. Okay.
    Mr. Melito. They are not meeting just for----
    Mr. Weber. So somebody compiles the report of these expert 
groups.
    Mr. Melito. Yes.
    Mr. Weber. Help me. Who is that office? What position is 
that?
    Mr. Melito. That is the International Security and 
Nonproliferation Bureau of State Department. They are the ones 
who are responsible for----
    Mr. Weber. Is that same person there now that was there in 
2006?
    Mr. Melito. We actually do not know.
    Mr. Weber. You actually do not know.
    Mr. Melito. We didn't ask that question.
    Mr. Weber. Okay. So----
    Mr. Melito. My staff just told me that they think he was.
    Mr. Weber. They think he wasn't there, but now he is there.
    Mr. Melito. They actually--they are telling me that the 
person who----
    Mr. Weber. He is there.
    Mr. Melito [continuing]. Is running the office now is the 
same one who was there then, yes.
    Mr. Weber. Do you know the reason why?
    Mr. Melito. I do not know.
    Mr. Weber. Could it be he or she wasn't held accountable?
    Mr. Melito. That is a question for State.
    Mr. Weber. Okay. But you are the GAO. You come in and you 
weigh in on these things, the process, right?
    Mr. Melito. We actually do not think that that Bureau 
itself was where the problem was. That Bureau was following the 
process it was told to follow. We would like the question to go 
to the Deputy Secretary.
    Mr. Weber. In your testimony, you state, ``State's delays 
in reporting on transfers and acquisitions have recently 
increased.'' Why?
    Mr. Melito. The ``why'' is hard to answer. We can show you 
which parts of the process it is taking, and it is taking much 
longer for the Deputy Secretary to approve it. Why it is taking 
him longer, I cannot tell you.
    Mr. Weber. Okay. So let me ask you this question. I have 
got 22 seconds left. You don't know--well, you do know who is 
responsible, and there is--first, you didn't think that person 
was still there, and now you think that person is still there. 
So we have a backlog.
    So is it a good premise to say, ``To fix this problem, let 
us let the backlog sit for a minute, and let us start today now 
and get somebody accountable in that process that has got to, 
say, report in less than 6 months.'' Is that feasible?
    Mr. Melito. I think it is possible for State to decide this 
year to start reporting every 6 months, and they would release 
whatever decisions have already been completed.
    Mr. Weber. Okay.
    Mr. Melito. And those decisions would cover multiple years. 
And they could do that and I think--and still continue to fully 
vet the cases that take too long, that take a long time.
    Mr. Weber. Okay. That doesn't make me happy, but, Madam 
Chairman, I will yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you so much. Those were excellent 
questions, Mr. Weber.
    And if I could just ask one question. Is the State 
Department taking longer to make these reports and implement 
the sanctions? If that is what is happening, does this diminish 
or bolster the credibility of the threatened sanctions? Because 
if sanctions are not being effectively implemented, and the 
delays in reporting are hindering their application, how 
credible is the threat to impose INKSNA sanctions? And did you 
raise this issue with State? And, if so----
    Mr. Melito. Yes.
    Ms. Ros-Lehtinen [continuing]. How did they respond?
    Mr. Melito. GAO observes in the report that a long period 
of time between observing a sanctionable action and sanctions 
probably undermines the credibility of the sanctions. State 
disagreed with that, but, to my mind, 3 or 4 years after you 
observe something is too long.
    Ms. Ros-Lehtinen. It is too long. Thank you very much. 
Director, please give your thanks to your team for excellent 
work.
    Thank you, ladies and gentlemen.
    And with that, our subcommittee is adjourned, but we look 
forward to working with you and making sure that they follow 
the law.
    Thank you.
    [Whereupon, at 2:57 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
